                             OFFICE OF
                      THE INSPECTOR GENERAL


                          U.S. NUCLEAR
                     REGULATORY COMMISSION


                       Review of NRC’s Quality Assurance
                         Process for Official Documents

                        OIG-01-A-02    February 23, 2001




                       AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
                     http://www.nrc.gov/NRC/OIG/index.html
                                            February 23, 2001




MEMORANDUM TO:               William D. Travers
                             Executive Director for Operations



FROM:                        Stephen D. Dingbaum/RA/
                             Assistant Inspector General for Audits


SUBJECT:                     REVIEW OF NRC’S QUALITY ASSURANCE PROCESS FOR
                             OFFICIAL DOCUMENTS (OIG-01-A-02)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Review of NRC’s
Quality Assurance Process for Official Documents. The report incorporates comments provided
by your offices, as appropriate, within the body of the report. Agency managers elected not to
provide written comments to the draft report as indicated in Appendix IV.

The provision of inaccurate information by any Government agency can have harmful
consequences on both the decision-making process that relies on such information and the
public’s confidence in the agency. Without exception, the Nuclear Regulatory Commission
(NRC) offices contacted during this review employ quality assurance measures to ensure
accuracy in the documents they generate. However, this report identifies inconsistencies in
NRC’s guidelines and policies which increase the risk of releasing inaccurate information.

This report makes two recommendations to improve NRC’s quality assurance process for
official documents. Please provide information on actions taken or planned on each of the
recommendations directed to your office no later than April 9, 2001. Actions taken or planned
are subject to OIG follow-up.

If you have any questions, please call me at 415-5915.


Attachment: As stated
cc:   R. McOsker, OCM/RAM
      B. Torres, ACMUI
      B. Garrick, ACNW
      D. Powers, ACRS
      J. Larkins, ACRS/ACNW
      P. Bollwerk III, ASLBP
      K. Cyr, OGC
      J. Cordes, Acting OCAA
      S. Reiter, Acting CIO
      J. Funches, CFO
      P. Rabideau, Deputy CFO
      J. Dunn Lee, OIP
      D. Rathbun, OCA
      W. Beecher, OPA
      A. Vietti-Cook, SECY
      F. Miraglia, DEDR/OEDO
      C. Paperiello, DEDMRS/OEDO
      P. Norry, DEDM/OEDO
      J. Craig, AO/OEDO
      M. Springer, ADM
      R. Borchardt, OE
      G. Caputo, OI
      P. Bird, HR
      I. Little, SBCR
      W. Kane, NMSS
      S. Collins, NRR
      A. Thadani, RES
      P. Lohaus, OSP
      F. Congel, IRO
      H. Miller, RI
      L. Reyes, RII
      J. Dyer, RIII
      E. Merschoff, RIV
      OPA-RI
      OPA-RII
      OPA-RIII
      OPA-RIV
                                       Review of NRC’s Quality Assurance Process for Official Documents


EXECUTIVE SUMMARY

PURPOSE

     As part of previous audit and investigative work, the Office of the Inspector General
     (OIG) identified instances in which the information prepared by Nuclear Regulatory
     Commission (NRC) staff for the Commission, Congress, Office of Management and
     Budget, public, and others was of questionable accuracy and reliability. The provision of
     inaccurate information by any Government agency can have harmful consequences on
     both the decision-making process that relies on such information and the public’s
     confidence in the agency. We initiated this review to determine whether NRC has
     adequate processes in place to ensure that official NRC documents contain accurate
     information.

BACKGROUND

     The Commission and Congress base key decisions regarding NRC programs and
     operations on the information provided in official NRC documents. The agency has
     publicly recognized the importance of providing clear and accurate information by
     incorporating it into its Fiscal Year 2000 - 2005 Strategic Plan as a cornerstone of its
     goal to increase public confidence.

     NRC’s quality assurance process for official documents relies on two primary
     components: (1) the ability of document originators to provide accurate information in
     the documents they generate, and (2) the concurrence process. Under this process,
     staff sign off on a document before passing it up the line for additional concurrences
     and, ultimately, final sign off by an NRC official.

RESULTS IN BRIEF

     Without exception, the NRC offices contacted during this review employ quality
     assurance measures to ensure accuracy in the documents they generate; however
     inconsistent practices were identified that increase the risk of releasing inaccurate
     information. Specifically, the role and responsibilities of NRC’s document originators are
     unclear in the agency’s guidance pertaining to correspondence. By providing basic
     guidance to document originators on fact checking methods and clarifying existing
     guidance concerning their role and the review process, NRC can improve the quality of
     its official documents and better achieve its goal of increasing public confidence. In
     addition, the Executive Director for Operations (EDO) should issue an announcement
     that provides clear expectations for staff to heighten awareness of the importance of
     information accuracy.

     At the exit conference, NRC managers agreed with the report’s finding and
     recommendations. During this discussion, both NRC managers and OIG highlighted the
     need for NRC staff to pay close attention to the language they use in written


     documents to avoid misinterpretation by the reader. In addition, a senior official stated

                                               1
                                      Review of NRC’s Quality Assurance Process for Official Documents

    that initiatives are underway to strengthen the quality assurance process for official
    documents in two offices that report to the EDO.

RECOMMENDATIONS

    This report makes two recommendations to improve NRC’s quality assurance process
    for official documents.




                                              2
                                            Review of NRC’s Quality Assurance Process for Official Documents


TABLE OF CONTENTS


        EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

        PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

        BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

        FINDING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

        RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

        AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


        APPENDICES

                  I          SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . 9
                  II         AGENCY “GOOD PRACTICES” . . . . . . . . . . . . . . . . . . . . . . . 10
                  III        ABBREVIATIONS AND ACRONYMS . . . . . . . . . . . . . . . . . . . 14
                  IV         AGENCY RESPONSE TO DRAFT REPORT . . . . . . . . . . . . . . 15
                                    Review of NRC’s Quality Assurance Process for Official Documents


PURPOSE

   As part of previous audit and investigative work, the Office of the Inspector General
   (OIG) identified instances in which the information prepared by Nuclear Regulatory
   Commission (NRC) staff for the Commission, Congress, Office of Management and
   Budget (OMB), the public, and others was of questionable accuracy and reliability. OIG
   has also received allegations and other feedback in recent years that have called into
   question the accuracy of information provided by NRC.

   The provision of inaccurate information by any Government agency can have harmful
   consequences on both the decision-making process that relies on such information and
   the public’s confidence in the agency. The main purpose in conducting this audit was to
   evaluate whether NRC has adequate processes in place to ensure that official NRC
   documents contain accurate information. It was not to uncover inaccuracies in official
   documents or second guess the work of NRC technical staff. Our review focused on
   official correspondence.

BACKGROUND

   NRC relies on written information to accomplish its regulatory mission. The Commission
   and Congress base key decisions regarding NRC programs and operations on the
   information provided in official NRC documents. Therefore, it is imperative that NRC’s
   information be accurate and fairly reflect the true status of the matter being portrayed.

   NRC generates a variety of written documents, including SECY papers; congressional
   testimony; responses to correspondence from members of Congress, the public,
   licensees, other Government agencies, and other stakeholders; inspection reports;
   financial reports; research reports; Federal Register notices; and news releases.
   Agency guidance (as described below) related to the preparation of these and other
   types of documents recognizes the need for both accuracy and clarity in these products
   to ensure that the intended message is conveyed to the recipient. When a reader is
   unable to decipher the intended message — even if the document is technically
   accurate — a key purpose of issuing the document is not achieved.

   NRC strives to ensure that information sent to the public and other stakeholders is
   accurate. The agency has recognized the importance of providing clear and accurate
   information by incorporating it into its Fiscal Year 2000-2005 Strategic Plan as a
   cornerstone of its goal to increase public confidence. The plan states:

          NRC views building and maintaining public trust and confidence that the NRC is
          carrying out its mission as an important performance goal for the agency. To
          reach this goal, the NRC must be viewed as an independent, open, efficient,
          clear and reliable regulator. This will be accomplished by providing our
          stakeholders with clear and accurate information about, and a meaningful role in,
          our regulatory programs.




                                            4
                                       Review of NRC’s Quality Assurance Process for Official Documents



    The agency’s guidance concerning accuracy and clarity appears in various publications,
    including management directives, NRC’s Principles of Good Regulation, the NRC
    Inspection Manual, and specific office and regional instructions. Management Directive
    (MD) and Handbook 3.57, “Correspondence Management,”(1) speak directly to the
    preparation of NRC’s official correspondence, which is defined in MD 3.57 as “a generic
    term for any written communication.” Another key piece of guidance, NRC Inspection
    Manual Chapter 0610, “Inspection Reports,” provides instructions concerning content,
    format, and style to ensure that inspection reports “clearly communicate significant
    inspection results to licensees, NRC staff, and the public.” NRC’s web page also
    contains information about the agency’s Plain Language Action Plan, which emphasizes
    the need for NRC staff to use “plain, understandable language” in documents and at
    public meetings.

    NRC’s process to ensure accuracy in official documents relies on two primary
    components. The first component is the ability of document originators to provide
    accurate information. The second is the concurrence process wherein staff sign off on a
    document before passing it up the line for additional concurrences and, ultimately, final
    sign off by an NRC official. According to Handbook 3.57, “The purpose of obtaining
    concurrence is to ensure that appropriate managers with collateral responsibility are
    aware of and agree to what is written. Although it is important that our documents be of
    the highest possible quality, those concurring should focus on the accuracy and clarity
    of the information rather than on nonsubstantive editorial changes.”

    In 1992 and 1995, a former Executive Director for Operations (EDO) issued memoranda
    concerning document accuracy and the concurrence process. The first memo, which
    referred to criticism NRC had received concerning “the accuracy of information
    contained in some of the staff-generated documents,” conveyed “guiding principles” that
    the EDO wanted NRC to follow in the process of originating and concurring on
    documents. These principles are still contained in MD and Handbook 3.57. In the 1995
    memo, the EDO expressed concern about “excessive concurrences and the resultant
    delays” and issued office-specific goals for limiting the concurrence chain to a specific
    number of reviewers. These goals are no longer followed, and concurrence chain
    lengths vary among offices and for different product types.

FINDING

    NRC offices contacted during this review employ quality assurance practices to ensure
    accuracy in the documents they generate; however, inconsistencies in Handbook 3.57
    and in quality assurance practices increase the risk of releasing inaccurate information.
    Specifically, the role and responsibilities of NRC’s document originators are unclear in
    Handbook 3.57, and document originators employ inconsistent approaches to quality
    assurance. As a result, inaccurate information has been released to Congress or the
    public and NRC’s credibility is adversely affected.

    Document Originator’s Role and Responsibility Are Unclear in Handbook 3.57


    1
           The current version of MD and Handbook 3.57 was approved August 4, 1994.

                                               5
                                  Review of NRC’s Quality Assurance Process for Official Documents

The primary source of guidance for ensuring accuracy in SECY papers and official
correspondence is MD and Handbook 3.57. This guidance:

R      emphasizes the responsibility of document originators for ensuring technical
       accuracy in the documents they generate, and

R      stresses the importance of the concurrence process as a quality assurance
       measure.

       Document Originators

Accurate information is the responsibility of the document originator. The document
originators interviewed conveyed an understanding of their responsibility to produce an
accurate draft; however, they described a wide variety of measures they undertake to
make sure their work is accurate. All strategies were based on the individual’s judgment
about what is appropriate, rather than on an NRC-imposed standard. Other factors that
influenced the originator’s approach to quality assurance included deadlines and
availability of staff with the expertise to provide input. One method used by document
originators to check accuracy was a point-by-point verification of a report’s facts and
figures by a co-worker who was not involved in the original draft. Another approach was
taken when the author was so familiar with his subject that he was confident he included
the correct information in his document, without any additional verification. In between
these two extremes were staff who (1) kept highlighted source files of information used
to draft a document, (2) did not keep source files, but knew where they could locate the
source documents if necessary, (3) asked cold readers to review documents, and (4)
went to specific subject matter experts to verify certain aspects of a report. The
variations described above are not necessarily problematic, but reflect the fact that MD
and Handbook 3.57 fail to establish a minimum threshold concerning fact-checking
methods to be employed by document originators.

As currently written, Handbook 3.57 is inconsistent in addressing where the originator’s
responsibility ends with regard to the draft document. Part II (J)(2)(b) of Handbook 3.57
states, “The primary author is responsible for the accuracy of all statements of fact and
all statement[s] of technical opinion contained in the original [emphasis added]
document.” Yet, according to Part I (H)(5), the originator is responsible for “Verifying
that all aspects of the communications are correct.” These two statements are
inconsistent. The first implies the document originator must verify the accuracy of the
original document only, while the latter suggests that originator responsibility carries
through until the document is finalized.

As another example of inconsistency in the guidance, Part II (C)(4)(b) of Handbook 3.57
states that the primary author is responsible for, “Ensuring that contributions from others
are accurate and [emphasis added] that the contributor is an appropriate source for the
information.” Yet, according to Part II (J)(2)(ii), the primary author must, “Ensure that
contributions from others are accurate or [emphasis added] that the contributor is a
proper source for accurate information.” These two statements are inconsistent
because the first suggests that the primary author must undertake two distinct quality
assurance measures with regard to contributions from others, while the latter suggests
that either measure will suffice.

                                          6
                                       Review of NRC’s Quality Assurance Process for Official Documents



       Concurrence Process

A lack of clarity in Handbook 3.57 pertaining to the meaning of concurrence exists.
According to Part II (J)(3), “the purpose of obtaining concurrence is to ensure that
appropriate managers with collateral responsibility are aware of and agree to [emphasis
added] what is written.” Yet, two paragraphs later, the guidance states, “An individual’s
concurrence does not mean that he or she agrees [emphasis added] with the structure
or every detail of the document.” Although concurrence chain reviewers were not
unclear on their responsibilities in that role, this contradictory explanation in Handbook
3.57 constitutes another example where the agency’s expectations and guidance need
to be clarified.

Another relevant inconsistency in Handbook 3.57 pertains to whether documents are
sent back to the originator to review and concur on changes that arise through the
concurrence process. Handbook 3.57 makes two different statements concerning this
issue. Part III (S)(3)(2) requires that if changes are made to a document that affect
specific facts or substance, the document must be returned to the primary author for
“verification and/or documentation of the change and new concurrences.” However,
Part II (J)(3)(e) requires return of the document to the primary author for verification
and/or documentation of the change but omits the requirement for “new
concurrences.”(3) The return of documents to the originator for review and/or
concurrence is a prudent measure for ensuring that inaccuracies are not inadvertently
introduced to a document during the review process. However, it is an essential
requirement if document originators are being held responsible for “verifying that all
aspects of the communications are correct.” If NRC’s intent is that responsibility for
accuracy shifts once changes are introduced through the concurrence process, the
Handbook needs to state this clearly so that accountability can be established for later
and final versions of the product.




2
       This requirement also appears in Part IV (R)(5) of Handbook 3.57.
3
       The more stringent requirement (i.e., if changes are made to a document that affect specific facts
       or substance, the document must be returned to the primary author for “verification and/or
       documentation of the change and new concurrences”) appears in Parts III and IV of MD 3.57,
       which address letters and memoranda. The less stringent requirement (i.e., return the document
       to the primary author for verification and/or documentation of the change) appears in Part II, which
       addresses principal and general correspondence. The requirement is unclear because letters and
       memoranda will, by definition, fall into either the principal or general correspondence category.
       Principal correspondence, as defined in MD 3.57, is executive correspondence that on the basis of
       its source, subject matter, sensitivity, or possible impact on NRC programs requires priority control,
       response, and management awareness. General correspondence, according to MD 3.57, refers to
       the correspondence that does not fit under the principal correspondence category.

                                                7
                                     Review of NRC’s Quality Assurance Process for Official Documents



   Specific practices that enhance the concurrence/quality assurance process are included
   in Appendix III of this report.

   Conclusion

   The failure to employ appropriate quality assurance measures can interfere with the
   decision-making process and diminish public confidence. NRC at times finds itself in
   the media spotlight for perceived inaccuracies and lack of candor in its communication.
   It is inevitable that some mistakes will occur due to the varying perceptions of and
   resources available to staff. However, the agency needs to provide consistent guidance
   and clear expectations to staff concerning fundamental information verification
   approaches. This will help ensure that the information it disseminates is accurate and
   that staff clearly understand their responsibilities with regard to the quality assurance
   process.

   At the exit conference covering the topics in the report, NRC managers agreed with the
   finding and recommendations. During this discussion, both NRC managers and OIG
   highlighted the need for NRC staff to pay close attention to the language they use in
   written documents to avoid misinterpretation by the reader. In addition, a senior official
   stated that initiatives are underway to strengthen the quality assurance process for
   official documents in two offices that report to the EDO.

RECOMMENDATIONS

   OIG recommends that the Executive Director for Operations:

   1) Revise MD 3.57 to clearly establish the responsibilities of the document originator and
   concurrence chain reviewers with regard to accuracy in the final product, and set clear
   expectations for document originators concerning fact-checking methods.

   2) Issue an announcement that provides clear expectations for staff to heighten
   awareness of the importance of information accuracy.

AGENCY COMMENTS

   OIG provided this report in draft form to agency officials and discussed its content at an
   exit conference on January 11, 2001. The views of attending officials have been
   incorporated in this report as appropriate. Agency managers elected not to provide
   written comments to the draft report. (See Appendix IV)




                                             8
                                                                                                Appendix I
                                        Review of NRC’s Quality Assurance Process for Official Documents


SCOPE AND METHODOLOGY

This audit focused on the Nuclear Regulatory Commission’s (NRC) quality assurance
processes for ensuring that official documents contain accurate information. It included a
review of agency, regional, and office guidance pertaining to quality assurance of documents.
Interviews were conducted with senior management officials, managers, and staff responsible
for originating, tracking, reviewing, concurring on, and signing official documents in 16
headquarters offices and 2 regional offices (Regions I and II). During these interviews, Office
of the Inspector General (OIG) staff sought information about (1) the types of documents each
office produces and the quality assurance measures employed for each type, (2) the
concurrence process, (3) ways to improve quality assurance activities, and (4) specific “good
practices” that offices follow with regard to these activities. OIG also contacted several other
Federal agencies to learn about their quality assurance processes for official documents,
reviewed recommendations issued by the Department of Health and Human Services pertaining
to rulemaking, and interviewed staff from the Union of Concerned Scientists and Public Citizen.

At the start of this review, OIG determined it would be problematic to quantify the number of
errors in NRC documents due to the large volume, variety, and technical complexity of material
the agency prepares. Instead, OIG maintained a focus on processes employed by NRC for
ensuring the accuracy of information in official documents. OIG did, however, explore
examples of inaccuracies that the OIG had identified during previous audit and investigative
work and other examples where accuracy of information had been called into question. This
audit was performed in accordance with generally accepted Government auditing standards
and included a review of management controls related to the objective of the audit.

The work was conducted from August 2000 to November 2000. The following OIG staff
members were major contributors to this report: Corenthis Kelley, Team Leader; Judy Gordon,
Senior Management Analyst; and Vicki Foster, Management Analyst.




                                                9
                                                                                              Appendix II
                                       Review of NRC’s Quality Assurance Process for Official Documents



AGENCY “GOOD PRACTICES”

Many offices and individuals involved in producing official NRC documents employ their own
specific procedures that supplement the agency’s overall guidance concerning quality
assurance processes for such documents. During the audit, a collection of some of these
agency “good practices” was compiled. This appendix was prepared to offer options for
managers and staff to consider. Some of these “good practices” are not required by NRC
guidance and others, while required, are employed in a manner that seems particularly helpful
to the quality assurance process. The chart below provides an overview of these practices;
further elaboration is provided in the numbered paragraphs that follow the chart.


          Good Practices To Facilitate the Document Review Process
 1    Hold up-front planning meetings among concurring individuals.
 2    Share changes with document originator.
 3    Hold staff accountable for inaccuracies.
 4    Share “lessons learned.”
 5    Use parallel concurrence.
 6    Use informal parallel reviews prior to concurrence process.
 7    Have court reporters transcribe public meetings.
 8    Involve public affairs staff in “Plain English” reviews.
 9    Send press releases back to originator to review Commission changes.
 10 Establish communication team for high profile events.
 11 Keep source files of reference materials.
 12 Use primary or reliable secondary source materials.
 13 Have technical editor proofread documents.
 14 Ask “cold reader” to review the document.
 15 Allow concurrence option to agree with facts, but disagree with
    conclusion.
 16 Provide product-specific concurrence guidance.
 17 Modify concurrence chains to avoid redundancy, yet include necessary
    reviewers.
 18 Conduct “peer reviews” of written products.

                                              10
                                                                                               Appendix II
                                        Review of NRC’s Quality Assurance Process for Official Documents



         Good Practices To Facilitate the Document Review Process
 19 Alternate people who write about the same subject.
 20 Use WordPerfect compare feature.
 21 Conduct independent referencing on written products.
 22 Hold off-site draft reviews prior to concurrence process.

1.    Hold up-front planning meetings among individuals (including the originator) who will be
      concurring on a document to discuss the desired approach to preparing a written
      product and appropriate content.

2.    Share all changes made to the original draft with the document originator. This not only
      helps to ensure accuracy, but also serves as a coaching strategy.

3.    Hold staff accountable for inaccuracies in their written work by documenting the
      problems in this area during performance appraisals.

4.    Regularly heighten staff awareness about accuracy issues. In one region, this is
      accomplished by the sharing of “lessons learned” experiences pertaining to specific
      examples of inaccuracies or lack of clarity during training, in memoranda, and verbally,
      as appropriate. In the same region, signs are posted throughout the regional office
      reminding staff to be sensitive to audience perceptions.

5.    Send documents around for parallel, or simultaneous, concurrence. This practice
      requires some extra effort in terms of coordinating feedback, but can draw the process
      to a close more quickly than the sequential concurrence approach.

6.    Send documents around for simultaneous informal review prior to the formal
      concurrence process. This review may include a combination of people who will not be
      on the formal concurrence chain as well as people on the chain.

7.    Utilize court reporters to transcribe the verbal exchanges that occur during public
      meetings. This allows NRC to respond better to attendees who have requested that
      NRC provide them with certain information at a later date. This “good practice” has
      limited applicability with regard to ensuring accuracy in written documents, but is useful
      with regard to the issue of accuracy in verbal exchanges with the public.

8.    Involve public affairs staff in reviewing documents for “Plain English.” This practice
      occurs routinely in one region, and sporadically in headquarters.

9.    Send press releases back to the document originator for review after the Commission
      has made changes to the document.




                                               11
                                                                                               Appendix II
                                        Review of NRC’s Quality Assurance Process for Official Documents




10.   Establish a communication team to ensure consistency and accuracy of responses with
      regard to specific high profile events. One such team was created in Region I, following
      the recent steam generator tube leak at Indian Point Unit 2 Power Plant, and included
      multidisciplinary team members from both headquarters and the region. The team was
      created to assist NRC management in the coordination of agency communications with
      the public and other external stakeholders. One of its responsibilities was to coordinate
      written responses to congressional correspondence and inquiries.

11.   Keep source files of reference materials used to compose an item of correspondence.
      Highlight specific information that was used in the product provided for concurrence.

12.   Use only primary or reliable secondary source materials in preparing written documents.

13.   Have documents proofread by a technical editor.

14.   Have documents reviewed by a “cold reader” who was not involved in the preparation of
      the document, but who has expertise in the subject area.

15.   Allow a concurrence option whereby the person concurring can document that he or she
      concurs with the facts and information presented in a document, but disagrees with the
      conclusion.

16.   Provide specific written guidance concerning concurrence chain requirements for
      specific products.

17.   Modify concurrence chains to avoid redundancy yet include the necessary reviewers. In
      one region where an addition was made to the concurrence chain for a particular
      product, a pilot test was first conducted to see if the time needed to obtain the additional
      review resulted in improved accuracy. In one headquarters office, the concurrence
      chain was shortened by deleting duplicate reviews at the same management level.

18.   Conduct “peer reviews” of written products. In one region that employs this practice,
      peer review participants review inspection reports issued during the preceding quarter.
      All participants read and critically assess the reports (or report sections) to determine
      whether they are consistent with agency guidance, and then openly discuss their
      findings.

19.   Alternate people who write about the same subject. In one region where this practice is
      employed, two different inspectors alternate monthly visits to a particular site. This
      gives them an opportunity to discuss their observations, which are ultimately combined
      into one quarterly inspection report.




                                               12
                                                                                              Appendix II
                                       Review of NRC’s Quality Assurance Process for Official Documents




20.   Use the WordPerfect compare feature to compare different versions of a document and
      determine where changes have been made.

21.   Independently reference written products by having an individual, who has not worked
      on a product, review that product and check factual statements against the source
      documents. This review is more rigorous than the “cold reader” approach described in
      number 14.

22.   Hold off-site reviews of draft products prior to the concurrence process. Participants are
      those who will be on the concurrence chain for the product. This practice encourages
      reviewers to focus on the subject and to discuss issues prior to the concurrence
      process.




                                              13
                                                                                       Appendix III
                                 Review of NRC’s Quality Assurance Process for Official Documents


ABBREVIATIONS AND ACRONYMS

EC      Executive Council
EDO     Executive Director for Operations
FY      Fiscal Year
MD      Management Directive
NRC     Nuclear Regulatory Commission
OIG     Office of the Inspector General
OMB     Office of Management and Budget




                                          14
                                                                             Appendix IV
                       Review of NRC’s Quality Assurance Process for Official Documents

AGENCY RESPONSE TO DRAFT REPORT




                              15
